DOE F 1325.8
(08-93)                                                                                                ng
United States Government                                                             Department of Energy


Memorandum                                                                       OFFICE OF INSPECTOR GENERAL


           DATE:
     REPLY TO
                   APR 18 2003
      ATTN OF:     IG-34 (A02PR010)                           Audit Report No.: OAS-L-03-15

     SUBJECT:      Audit of the Weatherization Assistance Program

          TO:      Director, Weatherization and Intergovernmental Program, EE-2K

                   The purpose of this report is to inform you of the results of our audit of the
                   Weatherization Assistance Program.

                   INTRODUCTION AND OBJECTIVE

                   The Weatherization Assistance Program (Program) was established to increase energy
                   efficiency in dwellings owned or occupied by low-income persons to reduce their
                   residential energy expenditures and improve their health and safety. Since its
                   inception in 1976, the Program has reported that approximately 5 million dwelling
                   units owned or occupied by low-income individuals have been weatherized.

                   The Department of Energy (Department) awards weatherization grants to states and
                   the District of Columbia (states) based on an established formula. States further
                   allocate funds to local agencies that perform or contract for the actual weatherization
                   work. In Program Year 2001, about 900 local agencies received funding that ranged
                   from as low as a few thousand dollars to as high as $4 million. In addition to
                   Departmental funds, states and local agencies also obtain funding for weatherization
                   from the Department of Health and Human Services' (HHS) Low-Income Home
                   Energy Assistance Program (LIHEAP) and other programs funded by utilities, states,
                   and other sources.

                   We initiated this audit to determine whether the Program was properly administered
                   and was achieving its goals.

                    CONCLUSIONS AND OBSERVATIONS

                    The Department has a long-established infrastructure through which states and local
                    agencies weatherize dwelling units occupied by low-income persons. We noted that
                    improvements have been made over the years to make the use of weatherization funds
                    more efficient and effective. For example, improvements have been implemented in
                    how energy audits of dwelling units are performed to ensure that potential energy
                    savings are identified and prioritized. We did, however, identify two issues that
                    Program officials should consider that may further improve effectiveness of
                     weatherization efforts.
Reporting Administrative Costs

We identified instances where local agencies reported administrative-type expenses as
program operating costs. Specifically, we observed that certain organizations
inappropriately charged expenses such as administrative staff, office rent, and
administrative supplies as direct program costs and thus understated total
administrative costs. Public laws and Federal regulations limit the amount of
weatherization grant funds that may be used for administrative purposes. If local
agencies continue to under report administrative costs, states could ultimately exceed
statutory limitations for administrative expenses over the life of the grant.

Departmental officials advised us that it is often difficult for local agencies to operate
within the statutory limitations for administrative costs. Congress has provided relief
by permitting local agencies to use up to an additional 5 percent of their subgrant for
administration if their award is for less than $350,000. The Program Office should
consider increasing its efforts in this area by working with states and local agencies to
ensure that administrative costs are minimized and that those incurred are accurately
and consistently reported.

Number of Homes Weatherized

We also noted that data regarding the number of homes weatherized was not reported
on a consistent basis. For example, data reported by some states related strictly to the
number of homes weatherized using Department funds. Other states, however,
combined the results of weatherization efforts funded by the HHS LIHEAP with those
completed with Departmental funds. Merging performance data for such states
distorts program results and could make it appear program efficiencies and energy
savings are greater than that actually achieved with available funding.

A response to this report is not required. We appreciate the cooperation of your staff
and the staffs at states and local agencies during our re ew.



                                           Rickey    . Hass, Director
                                            Science, Energy, Technology,
                                              and Financial Audits
                                            Office of Audit Services
                                            Office of Inspector General
                                                                 0
Attachment

 cc: Audit Liaison, EE-3C
     Team Leader, Audit Liaison, ME-2.1
                                                                                    Attachment

SCOPE

The audit was performed between July 2002 and March 2003 at the Program Office,
Washington, DC, and various Department Regional Offices, State Energy Offices, and local
agencies. The audit covered the Program's activity for its Program Years 2000 and 2001 and
its planned activities for Program Year 2002.


METHODOLOGY

To accomplish the audit objective, we:

      *    Obtained and reviewed applicable public laws and regulations and approved state
           plans;

       *   Reviewed the methodology for allocating Program funds to states and local
           agencies;

       * Held discussions regarding the Program with representatives of Headquarters,
         Regional Offices, LIHEAP, State Energy Offices, and local agencies;

       *   At selected local agencies, tested records of weatherization work including
           eligibility of low-income occupants, energy audit results, costs incurred, and other
           documentation supporting the weatherization work performed;

       *   At selected states, reviewed policies, procedures, and practices for monitoring local
           agencies;

       *   Tested compliance with statutory limitations for grantee and subgrantee
           administrative costs; and,

        * Reviewed performance measures and reported data describing the number of homes
          weatherized.

 The audit was conducted in accordance with Government Auditing Standards for performance
 audits and included tests of internal controls and compliance with laws and regulations to the
 extent necessary to satisfy the audit objective. Because our review was limited, it would not
 necessarily have disclosed all internal control deficiencies that may have existed at the time of
 our audit. We relied on computer-processed data to accomplish the audit objective. When
 appropriate, we performed limited test work of data reliability during our audit and
 determined that we could rely on the computer-processed data. The Program Office waived
 an exit conference.
DOE F 1325.8
  (8-89)
FFG (07-90.

United States Government                                                                        Denartment of Energy


memorandum
           DATE:      MAY 07 2003
      REPLY TO
       ATTN OF:      IG-34 (A02PR010)

      SUBJECT:       Final Report Package for "Audit of Weatherization Assistance Program"
                     Audit Report No.: OAS-L-03-15
               TO:   Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services

                     Attached is the required final report package on the subject audit. The pertinent details are:
                     1. Actual Staff days:          398
                     2. Actual Elapsed days:        260

                     3. Names of OIG audit staff:

                             Assistant Director:          George Collard
                             Team Leader:                 Steve Stronczer
                             Auditor-in-Charge:           Chris Narlis

                          1. Names of Contractor audit staff, if any: None
                          2. Coordination with Investigations and Inspections:
                             Yvette Milam, Investigations and Henry Minner, Inspections

                          3. Matters to be brought to attenti    of the     or AIGAS: None



                                                             Rickey . Hass, Director
                                                             Science, Energy, Technology,
                                                               and Financial Audits
                                                             Office of Audit Services
                                                             Office of Inspector General
                     Attachments:

                     1.   Final Report (3)
                     2.   Monetary Impact Report
                     3.   Audit Project Summary Report
                     4.   Audit Database Information Sheet
                                                                                                         Attachment 2

                        MONETARY IMPACT OF REPORT NO.: OAS-L-03-15


1. Title of Audit:           Audit of Weatherization Assistance Program

2. Region/Office:            Science, Energy, Technology, and Financial Audits/Princeton Audit Group

3. EIGPTS No.:               A02PR010

1. Type of Audit:

       Financial:                                             Performance:        X
         Financial Statement                                    Economy and Efficiency
         Financial Related                                      Program Results                          X
       Other (specify type):
5.

                                                                                                              MGT.            POTENTIAL
          FINDING                        BETTER USED                          QUESTIONED COSTS               POSITIO           BUDGET
                                                                                                                N               IMPACT
                                                 _Recurring
(A)              (B)              (C)     (D)        (E)      (F)       (G)           (H)         (1)           (J)              (K)
                Title            One    Amount       No.     Total   Questioned   Unsupported    Total       C=Concur           Y=Yes
                                 Time     Per       Yrs.    Amount    Portion       Portion                  N=Nonco            N=No
                                         Year                                                                    n
                                                                                                             U=Undec
      No reported findings




TOTALS--ALL FINDINGS                                                                                              .


6. Remarks: Audit identified two issues that the Weatherization Assistance Program Office
            should consider to improve effectiveness of weatherization efforts. Specifically,
            the Program Office should work with States and local agencies to ensure that
            administrative costs are minimized, those incurred are accurately and consistently
            reported, and the number of homes weatherized is reported on a consistent basis.

7. Contractor:                                               10. Approvals:
8. Contract No.: __
9. Task Order No.:                                                   Division Director/date                  /)       /   3

                                                                     Technical Advisor/Date
                                                    Office of the Inspector General (OIG)
                                              Audit Project Office Summary (APS)
                                                                                                                                 Page 1
Report run on:                  May 7, 2003 7:19 AM


  Audit#: A02PR010              Ofc:          PRA     Title: WEATHERIZATION ASSISTANCE PROGRAM



                                                          --------------        lanned  ----------------               Actual
                                                     Profile                End of Survey          Revised

   Entrance Conference:                         19-JUN-02                    25-JUL-02            25-JUL-02        25-JUL-02

   Survey Completed:                            19-AUG-02                    05-DEC-02            05-DEC-02         05-DEC-02
   Field Work Complete:
   Draft Report Issued:                                                      24-FEB-03            25-APR-03         18-APR-03

   Exit Conference:
   Completed with Report:                       24-FEB-03                    05-DEC-02            02-MAY-03        18-APR-03    (R   )
   --------     Elapsed Days                               250                      133                 280             267
   ----------     Staff Days:                              250                        0                                 399

   Date Suspended:                                                      Date Terminated:
   Date Reactivated:                                                    Date Cancelled:
   DaysSuspended(Cur/Tot):                          0 (               ) Report Number:            OAS-L-03-15
   Rpt Title:        AUDIT OF THE WEATHERIZATION' PROGRAM


                                                     ***k             Codes and Personnel . *'*
                                                                  *Audit

   Aud Type: PRR        PROGRAM RESULTS
   Category: EE        Not Found                                                    AD:           115   STRONCZER
   DOE-Org: HCR        HEADQUARTERS, CONSER                                         AIC:     523        NARLIS
   Maj Iss:  022       PROGRAM MANAGEMENT A                                         HDQ-Mon: 421        SCHULMAN
   Site:         MRA MULTI-REGION AUDIT                                             ARM:          459   COLLARD

                                                          ****        Task Informatibn ***

          Task No:
          Task Order Dt:                                               CO Tech. Rep:
          Orig Auth Hrs:                                               Orig Auth Costs:
          Current Auth:                                                Current Auth Cost:
          Tot Actl IPR Hr:                                             Tot Actl Cost:


                                                               ****        Time Charges     ***

                     Emp/Cont.iName                   NuidaVs                    iLast Date-
                     BOOS, B                                     0.4            19-APR-03
                     GALLO JR,        C                        63.0             11-JAN-03
                     STRONCZER,           S                    70.3             03-MAY-03
                     BOZARTH,     B                          120.1              19-APR-03
                     NARLIS,    C                            145.5              19-APR-03
                     Total:                                  399.3
                                                                                   Attachment 4

                    AUDIT DATABASE INFORMATION SHEET


1. Project No.: A02PR010

2. Title of Audit: Audit of Weatherization Assistance Program

3. Report No./Date: OAS-L-03-15, April 18, 2003

4. Management Challenge Area: Performance Management

5. Presidential Mgmt Initiative: President's National Energy Plan recommended increase of
   $1.2 billion over ten years for the Weatherization Assistance Program.

6. Secretary Priority/Initiative: Number of homes weatherized is an annual performance
   indicator in Department's annual performance plan.

7. Program Code: EE

8. Location/Sites: Program Office, Washington, DC, and various Department Regional Offices,
   State Energy Offices, and local agencies.

9. Finding Summary:

       No reported findings. However, audit identified two issues that the Weatherization
       Assistance Program Office should consider to improve effectiveness of weatherization
       efforts. Specifically, the Program Office should work with States and local agencies to
       ensure that administrative costs are minimized, those incurred are accurately and
       consistently reported, and the number of homes weatherized is reported on a consistent
       basis.

10. Keywords:

   *   Weatherization Assistance Program
   *   Office of Weatherization and Intergovernmental Program
   *   Office of Energy Efficiency and Renewable Energy
   *   EE
   *   Program Office
   *   Department Regional Offices
   *   State Energy Offices
   *   Local Agencies
   *   Weatherization
